<html>
<title> - FREEDOM OF EXPRESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                         FREEDOM OF EXPRESSION

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
70-938                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>  


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)
                         Freedom of Expression

                                Findings

        <bullet> During the Commission's 2011 reporting year, 
        Chinese officials continued to maintain a broad range 
        of restrictions on free expression that do not comply 
        with international human rights standards, including 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Articles 19 and 29 of the 
        Universal Declaration of Human Rights. While such 
        standards permit states in limited circumstances to 
        restrict expression to protect interests such as 
        national security and public order, Chinese 
        restrictions covered a much broader range of activity, 
        including expression critical of the Communist Party 
        and peaceful dissent. Despite this, Chinese officials 
        continue to point to Internet development in China as 
        proof of freedom of expression and to argue that 
        Chinese restrictions comply with international law, 
        including in the case of imprisoned Nobel Peace Prize 
        winner Liu Xiaobo.
        <bullet> This past year was marked by a major crackdown 
        on Internet and press freedom that exemplified the 
        range of tools officials can use to restrict the free 
        flow of information. The crackdown began in mid-
        February following protests in the Middle East and 
        North Africa and the appearance of online calls for 
        ``Jasmine'' protests in China.
        <bullet> While international and domestic observers 
        continued to note the vibrancy of Internet and cell 
        phone use in China, government and Party officials 
        showed little sign of loosening political control. Top 
        leaders, including President Hu Jintao, called for 
        ``strengthening'' the Party's guidance of online public 
        opinion, as well as the Party's leadership over the 
        Internet. Officials established a central-level agency 
        to tighten supervision of the Internet and issued 
        regulations to increase monitoring of Internet use in 
        public places. Censors continued to block the sharing 
        of online information that officials deemed to be 
        politically sensitive, including news of the Nobel 
        Peace Prize award to imprisoned intellectual and reform 
        advocate Liu Xiaobo, the calls for ``Jasmine'' 
        protests, and words such as ``human rights'' and 
        ``democracy.'' At times, citizen expression on China's 
        microblogs overwhelmed censors, including following the 
        Wenzhou high-speed train accident in July 2011.
        <bullet> Officials insisted that any reform of the 
        media industry would result in ``no change in the 
        Party's control over the media.'' Officials continued 
        to issue broad guidance, such as telling the media it 
        was their ``common responsibility'' to promote the 90th 
        anniversary of the Party's founding. Officials also 
        continued to issue specific directives, such as how to 
        cover the protests in the Middle East and North Africa 
        and the award of the Nobel Peace Prize to Liu Xiaobo. 
        Harassment of foreign journalists reached a new height 
        this past year, including beatings and threats of 
        expulsion of journalists who attempted to report on the 
        ``Jasmine'' protest strolls.
        <bullet> Officials continued to arbitrarily restrict 
        expression by abusing vague criminal law provisions and 
        abusing broad regulations and registration requirements 
        applicable to journalists, publishers, news media, and 
        the Internet. Citizens who criticized the government 
        were charged with national security crimes such as 
        ``subversion.'' Official campaigns to train and 
        supervise journalists conducted in the name of 
        combating corruption continued to be heavily imbued 
        with political indoctrination. Officials continued to 
        use campaigns they described as intended to enforce the 
        law to instead target ``illegal'' political and 
        religious publications. Such publications included ones 
        that ``defame the Party and state leaders'' or 
        ``contain political rumors that create ideological 
        confusion.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Raise concerns over and draw enhanced 
        international attention to the Chinese government's 
        continued insistence that its restrictions on freedom 
        of expression are consistent with international 
        standards. Chinese officials assert that such measures 
        are taken to protect national security or public order 
        when available information indicates that many measures 
        are aimed at silencing opposition to the Party or 
        blocking the free flow of information on politically 
        sensitive topics. Emphasize that the Chinese 
        government's position undermines international human 
        rights standards for free expression, particularly 
        those contained in Article 19 of the International 
        Covenant on Civil and Political Rights and Articles 19 
        and 29 of the Universal Declaration of Human Rights. 
        Emphasize to Chinese officials that Communist Party and 
        government censorship of the Internet and the press can 
        lead to instability by eroding public faith in the 
        media and government.
        <all> Engage in dialogue and exchanges with Chinese 
        officials on the issue of how governments can best 
        ensure that restrictions on freedom of expression are 
        not abused and do not exceed the scope necessary to 
        protect national security, minors, and public order. 
        Emphasize the importance of procedural protections such 
        as public participation in formulation of restrictions 
        on free expression, transparency regarding 
        implementation of such restrictions, and independent 
        review of such restrictions. Reiterate Chinese 
        officials' own calls for greater transparency and 
        public participation in lawmaking. Such discussions may 
        be part of a broader discussion on how both the U.S. 
        and Chinese governments can work together to ensure the 
        protection of common interests on the Internet, 
        including protecting minors, computer security, and 
        privacy.
        <all> Acknowledge the Chinese government's efforts to 
        expand access to the Internet and cell phones, 
        especially in rural areas, while continuing to press 
        officials to comply with international standards. 
        Support the research and development of technologies 
        that enable Chinese citizens to access and share 
        political and religious content that they are entitled 
        to access and share under international human rights 
        standards. Support practices and Chinese-language tools 
        and training materials that enable Chinese citizens to 
        access and share content in a way that ensures their 
        security and privacy. Support the dissemination of 
        online Chinese-language information on the Internet, 
        especially popular Chinese social media sites, that 
        discusses the rights and freedoms to which Chinese 
        citizens are entitled under international standards.
        <all> Raise concerns regarding Chinese officials' 
        instrumental use of the law, including vague national 
        security charges, as a tool to suppress citizens' 
        rights to freedom of expression, and question whether 
        such actions are in keeping with the spirit of the 
        ``rule of law.''
        <all> Elevate concern over the increased harassment of 
        foreign journalists, who this past year have been 
        beaten and threatened with expulsion for attempting to 
        report on events of public concern. Emphasize that such 
        treatment is not in keeping with regulations issued for 
        the 2008 Beijing Summer Olympic Games in which Chinese 
        officials promised greater freedoms for foreign 
        journalists, and is not in keeping with the treatment 
        Chinese journalists are afforded when reporting on 
        events in the United States.
        <all> Call for the release of Liu Xiaobo and other 
        political prisoners imprisoned for allegedly committing 
        crimes of endangering state security and other crimes 
        but whose only offense was to peacefully express 
        support for political reform or criticism of government 
        policies, including Tan Zuoren (sentenced in February 
        2010 to five years in prison after using the Internet 
        to organize an independent investigation into school 
        collapses in an earthquake).

                              Introduction

    During the Commission's 2011 reporting year, Chinese 
officials maintained a broad range of restrictions on free 
expression that do not comply with international human rights 
standards. While such standards permit states in limited 
circumstances to restrict expression to protect interests such 
as national security and public order, Chinese restrictions 
covered a much broader range of activity, including peaceful 
expression critical of the Communist Party. Chinese officials 
showed little sign of loosening political control over the 
Internet and cell phones. They called for strengthening the 
Party's guidance of online opinion and censored politically 
sensitive information, including searches for ``human rights'' 
or ``democracy.'' At times, citizen expression on China's 
popular microblogs overwhelmed censors, including following a 
high-speed train accident in July. A top official said there 
would be ``no change in the Party's control over the media,'' 
amidst censorship of events such as the Nobel Peace Prize award 
to imprisoned Chinese intellectual and reform advocate Liu 
Xiaobo and intensified harassment of foreign journalists. 
Officials continued to abuse vague criminal charges, including 
subversion, to target peaceful speech critical of the Party. 
Officials maintained broad regulations and registration 
requirements applicable to journalists, publishers, news media, 
and the Internet.

              International Standards for Free Expression

    Many Chinese restrictions on free expression do not comply 
with international human rights standards. Article 19 of the 
International Covenant on Civil and Political Rights (ICCPR) 
and Articles 19 and 29 of the Universal Declaration of Human 
Rights permit officials to restrict expression so long as it is 
(1) for the purpose of respecting the rights or reputations of 
others or protecting national security, public order, public 
health or morals, or the general welfare; (2) set forth in law; 
and (3) necessary and the least restrictive means to achieve 
the purported aim.\1\ Regarding the purpose requirement, the UN 
Human Rights Council has said restrictions on ``discussion of 
government policies and political debate,'' ``peaceful 
demonstrations or political activities, including for peace and 
democracy,'' and ``expression of dissent,'' are inconsistent 
with Article 19 of the ICCPR.\2\ As outlined in this section, 
Chinese officials continued to restrict expression on the 
Internet and in the media for impermissible purposes, such as 
to stifle peaceful criticism of the Communist Party. As to 
restrictions clearly set forth in law, Chinese officials this 
past year abused vaguely worded criminal law provisions and 
resorted to extralegal measures to arbitrarily restrict free 
expression. As to the narrowness requirement, as documented in 
this section, Chinese restrictions continued to be overly broad 
and disproportionate to protecting the stated interest. In May 
2011, the UN Special Rapporteur on the Promotion and Protection 
of the Right to Freedom of Opinion and Expression noted that 
restrictions on expression should be applied by an independent 
body and include the possibility of remedy against abuse.\3\ As 
noted in this section, in China there remained no independent 
checks on government abuse.

------------------------------------------------------------------------
      Official Response to Overseas Protests and Calls for Domestic
                          ``Jasmine'' Protests
-------------------------------------------------------------------------
  This past year was marked by a crackdown on free expression in China
 in early 2011 that followed protests in the Middle East and North
 Africa and the appearance of online calls for ``Jasmine'' protests
 domestically. Protests in the Middle East began in Tunisia in December
 2010 and soon spread to Egypt, Libya, and other countries in the
 region. In February 2011, the ``Jasmine'' calls began circulating
 online in China.\4\ They called for weekly non-violent protest strolls
 in select cities to demand an end to corruption and to promote issues
 such as judicial independence, free expression, and political
 reform.\5\

MEDIA AND INTERNET CENSORSHIP

  Officials reportedly censored Chinese media coverage of the Middle
 East and North Africa protests. According to leaked censorship
 instructions, officials allegedly ordered Chinese media to use only
 stories issued by the central government news agency, Xinhua, and
 banned reporting on demands for democracy in the Middle East or drawing
 comparisons to China's political system.\6\ Western media observed
 Chinese media relying heavily on Xinhua stories and observed one-sided
 coverage emphasizing the dangers of democracy for countries not ready
 for it.\7\ At the time, online censors reportedly blocked searches of
 the words ``Egypt,'' ``Libya,'' ``Jasmine,'' and ``democracy.'' \8\ The
 duration and effectiveness of the censorship was unclear. Foreign media
 attempting to report on the ``Jasmine'' protests encountered intense
 harassment. [See Foreign Journalists below for more information.]

HARASSMENT, DETENTIONS OF CHINESE CITIZENS

  Starting in mid-February 2011, Chinese authorities also targeted large
 numbers of writers, artists, Internet bloggers, lawyers, and reform
 advocates. Many were outspoken critics of the government; some tried to
 share information about the ``Jasmine'' protest calls, while the
 connection of others, if any, to the calls was unclear.\9\ Officials
 detained numerous citizens on national security and public disturbance
 charges.\10\ [For information on these and other individual cases in
 the crackdown, see Internet and Other Electronic Media, and Abuse of
 Criminal Laws To Punish Free Expression in this section.] The UN
 Working Group on Enforced or Involuntary Disappearances and other
 international groups noted reports of numerous Chinese citizens having
 gone missing or disappearing into official custody with little or no
 information about their charges or whereabouts.\11\ [For more
 information on the apparent disregard of criminal procedural
 protections in connection with the disappearances, see Enforced
 Disappearances in Section II--Criminal Justice.]
------------------------------------------------------------------------

                  Internet and Other Electronic Media


                BLOCKING AND FILTERING POLITICAL CONTENT


    In China, officials are not transparent about the content 
that is blocked or why it is blocked,\12\ and they continue to 
arbitrarily block content for purposes impermissible under 
international standards. Chinese authorities expressed anger 
over the awarding of the Nobel Peace Prize to imprisoned 
prominent intellectual and reform advocate Liu Xiaobo in 
October 2010, for example, and blocked online searches for 
``Nobel Peace Prize'' or ``Liu Xiaobo'' and text messages 
containing Liu's name.\13\ In January 2011, authorities 
reportedly banned hundreds of words, including ``democracy'' 
and ``human rights'' from cell phone text messages.\14\ 
Politically sensitive Web sites continued to be blocked, 
including a popular Tibetan culture site, an anticorruption 
site, and a public health advocacy Web site.\15\ Officials also 
continued to block information in a disproportionate manner 
that did not appear necessary to achieve a legitimate aim. For 
example, access to overseas sites such as Facebook, Twitter, 
and YouTube remained completely blocked.\16\ In late May 2011, 
officials reportedly imposed broad blocks on Internet and cell 
phone access in the northern part of the Inner Mongolia 
Autonomous Region following a series of mostly peaceful 
protests sparked by the death of a herder.\17\
    Officials continued to detain and harass Chinese citizens 
who sought to share politically sensitive content online. In 
each case, the activity appeared to pose little threat to 
national security or public order, or the punishment appeared 
disproportionate to the alleged offense. For example, rights 
defender Cheng Jianping (who uses the pseudonym Wang Yi) sent a 
satirical Twitter message urging anti-Japanese protesters to 
converge on the Japanese pavilion at the Shanghai 2010 World 
Expo.\18\ The Xinxiang City Reeducation Through Labor (RTL) 
Committee in Henan province ordered her to serve one year of 
RTL in November 2010.\19\ In April 2011, authorities in 
Chongqing municipality ordered a citizen to serve RTL for 
posting scatological humor in a critique of the policies of 
Chongqing's Party Secretary Bo Xilai.\20\ In November 2010, 
Shanghai police interrogated the writer Xia Shang after he 
offered to buy flowers for victims of a Shanghai fire in an 
Internet post.\21\ Officials treated citizens who sought to 
share information about the calls for domestic ``Jasmine'' 
protests, which appeared to be a non-violent call for political 
reform, as threats to the state. The detained included Hua 
Chunhui, an insurance company manager and activist who 
reportedly sent Twitter messages about the ``Jasmine'' protest 
calls and was charged with endangering state security.\22\ In 
April 2011, officials in Jiangsu province ordered Hua to serve 
18 months of RTL.\23\ In February, police in Harbin city, 
Heilongjiang province, detained Internet blogger Liang Haiyi on 
suspicion of the crime of ``subversion of state power.'' Police 
accused her of posting information about the ``Jasmine'' 
protests on the popular QQ microblogging site.\24\
    The types of content prohibited online in China are not 
clearly defined in law, and thus conflict with international 
standards. Chinese Internet regulations contain vague and broad 
prohibitions on content that, for example, ``harms the honor or 
interests of the nation,'' ``spreads rumors,'' or ``disrupts 
national policies on religion.'' \25\ Chinese law does not 
define these concepts.\26\ In China, the government places the 
burden on Internet service and content providers to monitor and 
remove content based on these vague standards and to maintain 
records of such activity and report it to the government.\27\ 
In February 2011, a manager at Renren, a major social media 
company similar to Facebook, said that the company censored 
sensitive content using a staff of 500 and a keyword filtering 
system, and that the ``CEO would have to have a coffee with the 
government'' for any misstep.\28\ The Party's influence over 
the technology sector was evident in June, when more than 60 
representatives from top Chinese Internet companies, including 
Sina and Baidu, gathered in Shanghai to commemorate the Party's 
90th anniversary.\29\ Also in June, Sina announced plans to 
launch an English microblog site in the United States, which 
could have the effect of exporting Chinese censorship to 
overseas markets.\30\ The U.S.-based company Google, which has 
operations in China and which in early 2010 challenged Chinese 
censorship requirements, reportedly continued to face problems 
in China. In March 2011, Google reported that the Chinese 
government appeared to be interfering with its email service in 
China and making it look like a technical problem.\31\ The 
government denied the charge.\32\ In June, Google reported that 
an attack on hundreds of personal Gmail accounts, including 
those of Chinese political activists, senior U.S. officials, 
and journalists, had originated from China.\33\ The Party's 
official newspaper rejected the allegation.\34\


                    PRIOR RESTRAINTS ON THE INTERNET


    In addition to blocking certain types of content, officials 
in China control the Internet by determining who gains access 
to the medium through numerous licensing requirements (i.e., 
prior restraints). All Web sites hosted in China are required 
either to be licensed by or registered with the government, and 
sites providing news content or audio and video services 
require an additional license or registration.\35\ In a 2011 
report, the UN Special Rapporteur for Free Expression said that 
licensing requirements ``cannot be justified in the case of the 
Internet, as it can accommodate an unlimited number of points 
of entry and an essentially unlimited number of users.'' \36\ 
In October 2010, Chinese media reported that as of the end of 
September 2010 Chinese Internet companies had inspected nearly 
1.8 million Web sites and shut down 3,000 for failing to 
register.\37\ In July 2011, the Chinese Academy of Social 
Sciences (CASS) reported a 41 percent decrease in the number of 
Web sites in China in 2010 to 1.91 million sites.\38\ The 
report's editor cited government campaigns targeting 
``obscene'' sites and the economic downturn as reasons for the 
decrease, and said in recent years few sites had been closed 
``purely to control speech.'' \39\ Other observers in China, 
however, attributed the decrease to the chilling effect of 
expanding government control.\40\ The CASS study also claimed 
that the United States was using new media, including the Voice 
of America, to threaten China's ``ideological safety.'' \41\


          EXPANDING OVERALL ACCESS, WHILE MAINTAINING CONTROL


    The government has pledged to expand access to the Internet 
and cell phones.\42\ Official statistics indicate that by the 
end of 2010, there were 457 million Internet users in China, 
including a growing number in rural areas, and by April 2011, 
900 million mobile phone accounts.\43\ Officials have sought to 
expand the Internet to promote economic development and 
government propaganda.\44\ Still, international observers and 
Western media continue to note the difficulties officials have 
in controlling this emerging and vibrant space for expression, 
including expression of criticism of the government and 
discussion of some politically sensitive topics.\45\ In July 
2011, for example, users on China's two most popular Twitter-
type microblogs posted some 26 million messages after a high-
speed train crash near Wenzhou city, Zhejiang province.\46\ 
Officials reportedly censored some messages, but a large number 
of messages either were allowed through or appeared too quickly 
for censors to react.\47\
    Official statements and actions continue to emphasize 
control rather than freedom on the Internet. The importance of 
maintaining official control was reinforced in May 2011, when 
officials established a State Internet Information Office to 
``supervise and urge relevant departments to strengthen their 
supervision of online content, and to be responsible for 
approvals for online news services and other related services 
as well as day-to-day oversight.'' \48\ In China, the Communist 
Party exercises tight control over government agencies that 
manage the media and Internet.\49\ This relationship gives the 
Party discretion to use government restrictions not just for 
the purpose of regulating pornography, intellectual property 
violations, and protecting minors--permissible purposes under 
international standards--but also to serve the Party's 
interests. In February 2011, President Hu Jintao called for 
``strengthening the mechanisms for guiding online public 
opinion.'' \50\ The practice of authorities paying Chinese 
citizens to post comments favorable to the government and Party 
on the Internet reportedly continued.\51\ In February, 
Communist Party Politburo Standing Committee member Zhou 
Yongkang said authorities should ``coalesce a comprehensive'' 
structure for managing the Internet ``under the Party 
committee's unified leadership.'' \52\ In Beijing, authorities 
reportedly issued regulations requiring bars, hotels, and other 
public places to purchase and install costly software to 
monitor the identities of people using wireless services at 
those locations.\53\

            Abuse of Criminal Law To Punish Free Expression

    Officials continued to use the criminal charges of 
``subversion'' and ``inciting subversion'' (Article 105 of the 
PRC Criminal Law) this past year, in part in connection with 
the crackdown that followed protests in the Middle East and 
North Africa and the calls for ``Jasmine'' protests 
domestically.\54\ According to the non-governmental 
organization (NGO) Chinese Human Rights Defenders, out of a 
total of 48 individuals detained since mid-February 2011, 
officials had charged at least 17 with ``subversion'' or 
``inciting subversion.'' \55\ Ran Yunfei, a prolific writer, 
blogger, and activist, was arrested in March for ``inciting 
subversion.'' \56\ Authorities released him in August but 
placed him under ``residential restriction'' for six months, 
restricting his movements and ability to write and speak.\57\ 
In March, police in Ningbo city, Zhejiang province, detained 
prominent blogger Guo Weidong on suspicion of ``inciting 
subversion of state power'' after alleging he had forwarded 
information online about the protests.\58\
    Officials also charged numerous persons with ``creating 
disturbances,'' a crime under Article 293 of the PRC Criminal 
Law.\59\ Officials detained the human rights activist Wei Qiang 
on the charge of ``creating a disturbance'' in March 2011, 
before releasing him on bail to await trial in April.\60\ In 
February, Wei was at the site of one of the ``Jasmine'' protest 
strolls in Beijing and reported on the scene using his Twitter 
account. Amid the broader crackdown, authorities in March 2011 
also detained the Beijing-based rights advocate Wang Lihong on 
the charge of creating a disturbance, but in connection with 
activities stemming from almost a year earlier.\61\ They 
alleged that Wang had used the Internet to organize protests 
outside a court in support of three bloggers accused of 
defamation for helping a woman call on officials to 
reinvestigate her daughter's death.\62\ In September, after a 
trial reportedly marked by procedural irregularities,\63\ a 
Beijing court sentenced Wang to nine months in prison for 
creating a disturbance.\64\
    In the case of the well-known artist Ai Weiwei, officials 
charged him with economic crimes, alleging that his company had 
evaded ``a huge amount of tax.'' \65\ Ai had become an 
outspoken critic of government policies and had been keeping 
track of the lawyers, bloggers, and activists swept up in the 
crackdown, when officials detained him in April.\66\ 
Authorities had refused to notify his family of the charges 
against him or his whereabouts and kept him at a secret 
location, purportedly under ``residential surveillance.'' \67\ 
During his 81 days in custody, Ai was reportedly kept in a cell 
without windows and was accompanied by two guards.\68\ 
Authorities released Ai on bail in June on the condition that 
he not give interviews or use Twitter.\69\ In August, Ai 
resumed his Twitter messages and told a Western newspaper, ``I 
can't be alive and not express my feelings.'' \70\
    The actual threat these citizens posed to state security 
and public order or whether the underlying crime was the actual 
motivation for official action is unclear, as details regarding 
many of these cases remain limited. Available information 
suggests that officials targeted the citizens to stifle 
political expression and dissent. Many of the citizens targeted 
had track records of criticizing the government and Communist 
Party and advocating for democracy and human rights.\71\ As the 
UN Working Group on Arbitrary Detention and Chinese Human 
Rights Defenders have noted in recent years, the vagueness of 
Chinese crimes of endangering state security, including 
subversion, lends itself to official abuse of freedom of 
speech, and Chinese courts make little assessment of whether 
the speech in question poses a threat to state security.\72\ 
There were other cases of alleged subversion or splittism this 
past year. In October 2010, officials in Wuhan city, Hubei 
province, arrested the prolific blogger Li Tie on charges of 
subversion; Li had written numerous essays in support of 
democracy.\73\ In November, Beijing authorities detained 
activist Bai Dongping on inciting subversion charges after he 
posted online a photo of the 1989 Tiananmen protests.\74\ In 
December, three Tibetan writers, Kalsang Jinpa, Jangtse Donkho, 
and Buddha were sentenced to prison terms of three to four 
years for inciting splittism after articles they had written 
about the 2008 Tibetan protests appeared in a magazine.\75\ In 
March 2011, authorities in Suining city, Sichuan province, 
sentenced democracy advocate Liu Xianbin to 10 years in prison 
for seeking to incite subversion by writing essays advocating 
for, among other things, democracy, and posting them on Web 
sites outside of China.\76\

------------------------------------------------------------------------
   Authorities Defend Liu Xiaobo Case on Grounds of International Law
-------------------------------------------------------------------------
  After imprisoned prominent intellectual and reform advocate Liu Xiaobo
 was awarded the Nobel Peace Prize in October 2010, Chinese authorities
 sought to defend their handling of his case as consistent with
 international law. After the award was announced, China's central
 government news agency, Xinhua, issued an analysis of the case based on
 the findings of a Chinese criminal law scholar, Gao Mingxuan.\77\ The
 analysis noted that international treaties and nearly every country's
 laws criminalize some speech, and that Liu's speech had sought to
 incite the overthrow of the Chinese government.\78\ Xinhua failed to
 note that the essays and activities cited as evidence against Liu, who
 was sentenced to 11 years in prison, did not advocate violence and
 instead called for nonviolence and gradual political reform.\79\ A May
 2011 opinion of the UN Working Group on Arbitrary Detention concluded
 that Chinese authorities' handling of Liu's case violated both his
 right to fair trial and his right to political free speech as provided
 under international law.\80\ Chinese officials responded to the Nobel
 announcement by detaining citizens who distributed leaflets and posted
 online messages in support of Liu.\81\
------------------------------------------------------------------------

                         Extralegal Harassment

    Chinese officials continued to physically harm, restrict 
the travel of, and otherwise extralegally harass citizens to 
punish and stifle expression. Under illegal home confinement 
after his release, self-trained legal advocate Chen Guangcheng 
and his wife Yuan Weijing recorded video of themselves 
describing the round-the-clock surveillance and harassment they 
faced.\82\ After the video was smuggled out and posted online 
in February 2011, security officials reportedly beat Chen and 
Yuan on two occasions.\83\ After the Nobel announcement in 
October 2010, authorities confined Liu Xia, the wife of Liu 
Xiaobo, to her home in Beijing and cut off her communications 
to the outside world.\84\ A May 2011 opinion of the UN Working 
Group on Arbitrary Detention concluded that Liu Xia's house 
arrest violates international standards.\85\ After his release 
from prison in December, China Democracy Party co-founder Qin 
Yongmin was harassed by police in Wuhan city, Hubei province, 
who accused him of speaking to reporters.\86\ Officials refused 
to allow the noted writer Liao Yiwu to attend the March 2011 
PEN World Writers Festival in New York and a literary festival 
in Australia in May.\87\ In July, Liao escaped China at the 
Vietnam border. He fled to Berlin in anticipation of the 
publication of a memoir on the four years he spent in a Chinese 
prison for writing a poem on the 1989 Tiananmen protests.\88\ 
The Buddhist leader Wu Zeheng reportedly has been beaten, 
harassed, and prevented from participating in a Buddhist 
celebration by authorities in Guangdong province following his 
release from prison in February 2010.\89\ Wu previously served 
11 years for alleged economic crimes, although reports connect 
that imprisonment to his issuance of letters to China's 
leadership calling for reforms and an end to corruption.\90\

                          Freedom of the Press

    Chinese government and Communist Party control over the 
press continued to violate international standards. 
International experts identify media serving ``as government 
mouthpieces instead of as independent bodies operating in the 
public interest'' as a major challenge to free expression.\91\ 
In China, officials expect the media to serve as the Party and 
government's mouthpiece. In a November 2010 speech on political 
reform, Liu Binjie, director of the government agency 
responsible for regulating the press, the General 
Administration on Press and Publication, said any reform must 
be ``beneficial to strengthening and improving the Party's 
leadership over press and publishing work. . . . From beginning 
to end we must insist on . . . no change to the nature of press 
and publishing serving as mouthpiece of the Party and the 
people, no change in the Party's control over the media.'' \92\ 
In January 2011, a spokesperson for the State Administration 
for Radio, Film, and Television (SARFT) said officials had 
ruled out any moves to commercialize radio and television 
stations. ``Radio and television stations are the Party's 
important news media and battleground for propagandizing 
ideology and culture . . . and propaganda must remain its 
focus,'' he said.\93\ In November 2010, the Party's official 
journal, Seeking Truth, cited the experience of the former 
Soviet Union to argue against any liberalization of China's 
press.\94\
    Authorities have allowed reporters some room to exercise 
``public supervision'' duties over local officials and local 
matters, but in recent years have sought to rein in this space. 
In the summer of 2010, for example, the Central Propaganda 
Department reportedly barred more commercially oriented 
``metropolitan'' (dushi) newspapers from publishing 
``negative'' stories about incidents in other geographic areas 
within China or carrying stories published by newspapers based 
in other areas, a practice known as ``outside area 
supervision.'' \95\ Rhetorically, officials continue to claim 
that the rights of legally recognized journalists should be 
protected, although the content of such rights remains 
unclear.\96\ Emboldened by official claims that journalists 
deserve protection, Chinese journalists protested a series of 
incidents during the summer of 2010 in which local officials 
and commercial interests had targeted a number of journalists, 
including threatening them with charges of criminal 
defamation.\97\ Despite such protests, a deputy editor at 
Caijing, a Chinese financial magazine known for its 
investigative reporting, noted the ``core problem: our police 
and judiciary are not independent and there is widespread 
collusion between officials and enterprises.'' \98\ In July, 
the Party issued an order censoring news coverage of a high-
speed train accident in Wenzhou city, Zhejiang province, 
forcing newspapers to discard pages containing coverage of the 
incident.\99\ The order came after Chinese citizens flooded the 
Internet with messages questioning officials' response and 
openness following the crash.\100\ A number of Chinese 
journalists expressed outrage at the propaganda order on their 
blogs, and at least one news weekly appeared to ignore the 
order.\101\


          POLITICAL CONTROL OF MEDIA THROUGH PARTY DIRECTIVES


    This past year, officials continued to publicly issue broad 
directives on what China's domestic media should report, 
reminding journalists of their duty to ``correctly'' (zhengque) 
guide public opinion. On Journalists' Day in China in November 
2010, Li Changchun, a member of the Standing Committee of the 
Political Bureau of the Communist Party Central Committee, said 
that ``a correct public opinion orientation benefits the Party 
and the people.'' \102\ He called on the news media to 
``propagandize the Party's positions.'' \103\ To prepare for 
the 90th anniversary of the founding of the Chinese Communist 
Party in July 2011, Central Propaganda Department director Liu 
Yunshan said in April that covering the anniversary was the 
``common responsibility of media organizations at various 
levels.'' \104\ He called on evening and metropolitan 
newspapers to ``use vivid stories and inspiring topics to 
illustrate the glorious history of our Party's struggle'' and 
urged online media to ``help the large numbers of netizens 
understand the Party's great historical course by publishing 
special postings, background links, and online interviews.'' 
\105\ In May 2011, an official at SARFT confirmed that 
television stations had been verbally ordered not to air 
detective and time travel shows during the anniversary 
period.\106\
    The Party, through its Central Propaganda Department, lower 
level propaganda departments, and other government agencies, 
also issues more specific directives to the media on what they 
can and cannot report on. These directives are considered state 
secrets, but their contents continue to be leaked to the public 
and reported on by foreign and Hong Kong media and non-
governmental organizations. In an April 2011 Washington Post 
story, unnamed Chinese editors and journalists confirmed the 
substance of a series of directives issued in March that 
appeared to reflect official nervousness over the North Africa 
and Middle East protests.\107\ In January 2011, the 
International Federation of Journalists released a report 
documenting more than 80 censorship orders in 2010.\108\ The 
orders reportedly blocked information on ``public health, 
disasters, corruption and civil unrest.'' \109\ A virtual news 
blackout, including the blacking out of Western stations 
broadcast in China, followed the Nobel Peace Prize announcement 
in October 2010.\110\ The only news stories were from state-run 
media outlets such as Xinhua and Global Times, which reported 
on Chinese displeasure with the award.\111\ In January 2011, 
the Central Propaganda Department reportedly ordered media not 
to use the phrase ``civil society'' in their reports.\112\


                       PUNISHMENT OF JOURNALISTS


    Journalists and news media who issued news reports that 
authorities did not approve of continued to face punishment. In 
December 2010, a reporter at Southern Weekend said that the 
paper had been ordered to cease publication of an annual media 
award.\113\ In January 2011, the outspoken journalist Chang 
Ping, who worked for the Southern Daily Group, reported that he 
had been dismissed from his job under pressure from 
authorities.\114\ That same month, Time Weekly placed one of 
its editors, Peng Xiaoyun, on what appeared to be involuntary 
leave after the paper ran a story mentioning prominent 
activists and several signers of Charter 08.\115\ Titled the 
``100 Most Influential People of Our Time'' and published in 
mid-December, the list included Zhao Lianhai, the advocate for 
victims of tainted milk.\116\ After the story's publication, 
copies reportedly were recalled and Peng and another editor 
were required to write self-criticisms.\117\ In March 2011, 
Peng reported that she had been dismissed.\118\ The publishers 
of another Guangzhou-based publication, South Wind Window, 
reportedly demoted its president and suspended another 
journalist after officials criticized a story they deemed 
``anti-government and anti-Communist Party.'' \119\ Following 
the Wenzhou train crash, China's central television network 
suspended Wang Qinglei after the host of a program he produced 
questioned the Railway Ministry's response to the incident, and 
removed another program after it criticized the ministry's 
spokesman.\120\


     POLITICAL CONTROL OF MEDIA THROUGH REGULATION OF EDITORS AND 
                              JOURNALISTS


    All news media are subject to an extensive licensing system 
and continual government oversight. In order to legally report 
the news, domestic newspapers, magazines, and Web sites, as 
well as individual journalists, must obtain a license or 
accreditation from the government.\121\ Radio and television 
broadcast journalists must pass a government-sponsored exam 
that tests them on basic knowledge of Marxist views of news and 
Communist Party principles.\122\ In the 2010 Annual Report, the 
Commission reported that government officials were planning to 
require all journalists to pass a similar exam, but it is 
unclear whether this exam has been implemented.\123\ Ongoing 
training initiatives for journalists continued to be heavily 
imbued with political indoctrination. In November, 
teleconferences with journalists across China were held in 
connection with a new campaign to ``Stop False Reporting, 
Strengthen Social Responsibility, and Strengthen Construction 
of News Profession Ethics.'' \124\ The campaign sought to 
``guide editors and journalists to grasp the basics of Marxist 
views of news . . . in order to strengthen the feeling of glory 
and mission in doing the Party's news work well.'' \125\ 
According to an April 2011 article on the China Journalists 
Association Web site on 14 newspaper units that carried out 
``self-education,'' journalists at one Beijing newspaper were 
reminded that ``news media are the mouthpiece of the Party and 
people . . . and not simply a commercial activity.'' \126\
    International experts have criticized a general licensing 
requirement for journalists.\127\ In a 2010 joint declaration 
on challenges to free expression, the UN Special Rapporteur on 
Freedom of Opinion and Expression and his international 
counterparts identified as challenges ``registration 
requirements for print media'' and government rules against 
``publishing false news.'' \128\ Chinese officials continue to 
exercise their discretion to shut down unlicensed media. In 
March 2011, China's main press regulator, the General 
Administration on Press and Publication, announced a 100-day 
campaign to, among other objectives, shut down ``illegal'' 
reporting offices.\129\


                          FOREIGN JOURNALISTS


    This past year the Commission observed a spike in the 
intensity and level of harassment against foreign journalists 
as they attempted to report on events considered sensitive by 
Chinese officials. In February 2011, foreign journalists who 
traveled to Linyi city, Shandong province, to report on the 
home confinement of self-trained legal advocate Chen Guangcheng 
encountered violent groups of men who roughed them up, 
threatened them with bricks, and destroyed equipment.\130\ The 
journalists contacted local police but received no 
assistance.\131\ In late February and early March 2011, Chinese 
authorities harassed foreign journalists attempting to cover 
the ``Jasmine'' protest strolls at sites in Beijing and other 
parts of China.\132\ On February 27, reporters covering the 
Wangfujing site in Beijing met rough treatment from officials, 
and one journalist was reportedly beaten and later sought 
treatment at a hospital.\133\ Chinese Foreign Minister Yang 
Jiechi denied that any foreign journalists had been beaten, and 
foreign ministry spokesperson Jiang Yu said the journalists had 
disrupted ``normal order'' and violated unspecified rules.\134\ 
Harassment continued in the days that followed, with officials 
asking a journalist to sign a pledge promising never to report 
on the ``Jasmine'' protests and officials threatening to expel 
journalists or revoke their press credentials.\135\ In April, 
plainclothes police detained, and in at least one case roughed 
up, foreign reporters attempting to cover an outdoor Christian 
religious gathering.\136\ In May 2011, the professional 
association of international journalists in China, the Foreign 
Correspondents' Club of China, said 94 percent of survey 
respondents believed reporting conditions in China had 
deteriorated, with 70 percent saying they faced interference, 
violence, or other harassment during the past year, and 40 
percent saying their sources had encountered official 
harassment.\137\


  RESTRICTIONS ON ``ILLEGAL'' PUBLISHING AND POLITICAL AND RELIGIOUS 
                              PUBLICATIONS


    The Chinese government continued to engage in campaigns to 
root out unlicensed publications and publications containing 
what officials deemed to be ``illegal'' political and religious 
content. In China, no one may publish, print, copy, or 
distribute a publication without government approval, and 
publishers must submit to ongoing government supervision.\138\ 
To obtain government approval, a publisher must meet minimum 
capital requirements, obtain a government-approved sponsor, and 
accord with the state's own plans for the publishing 
industry.\139\ Once approved, publishers must submit written 
reports of their publishing activities to the government and 
seek advance approval to publish on matters that involve 
``state security'' or ``social stability.'' \140\ In March 
2011, the State Council amended the Regulations of the 
Administration of Publications, leaving these general 
requirements intact and adding new provisions requiring those 
who distribute publications over the Internet or information 
networks to obtain a license and requiring specialized 
personnel to take a state exam to show compliance with state-
imposed qualifications.\141\
    Those who ``illegally'' engage in business activities, 
including publishing without a license, remain subject to 
criminal penalties under Article 225 of the PRC Criminal Law, 
and officials continue to use this charge to target political 
speech.\142\ In August 2010, authorities in Shaanxi province 
detained author and journalist Xie Chaoping on this charge 
after he published a book on the relocation of citizens 
affected by a hydroelectric dam.\143\ Prosecutors refused to 
approve Xie's arrest for insufficient evidence.\144\ In 
December 2010, authorities took Mongol writer Erden-uul into 
custody in apparent connection to a new book he authored that 
reportedly addressed Inner Mongolian independence from China, 
saying the writer had engaged in ``illegal publishing.'' \145\ 
The Chinese government reported in September 2010 that Mongol 
rights advocate Sodmongol was being tried in connection to 
``counterfeiting book registration numbers and illegally 
publishing and selling books.'' \146\ In April 2010 authorities 
detained Sodmongol while he was en route to attend the UN 
Permanent Forum on Indigenous Issues.\147\
    Government agencies police content based on vague and 
sweeping prohibitions on content deemed by officials to 
``destroy ethnic unity, or infringe upon ethnic customs and 
habits,'' ``propagate evil cults or superstition,'' or ``harm 
the honor or interests of the nation.'' \148\ Provincial and 
local authorities continued to target ``illegal'' political and 
religious publications. In March 2011, a Chinese news report 
said authorities in Heilongjiang province would ``strictly 
confiscate political illegal publications and publications that 
defame the Party and state leaders, along with illegal 
publications that incite ethnic division.'' \149\ It also said 
authorities would emphasize blocking and confiscating ``illegal 
political publications'' that ``hostile foreign forces cook 
up,'' or that ``domestic lawless persons illegally print or 
copy to disseminate political rumors,'' or that ``create 
ideological confusion.'' \150\ In April, authorities in Jiangxi 
province seized some 632 publications that constituted 
``illegal religious propaganda.'' \151\ Also in April, 
authorities in Guang'an city, Sichuan province, reportedly 
destroyed some 30 items that were ``illegal political 
publications, [related to the] Falun Gong cult organization, 
and illegal religious propaganda,'' as well as 1,141 ``illegal 
newspapers and journals.'' \152\

                                Endnotes

    \1\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19(3); Universal Declaration of Human 
Rights, adopted and proclaimed by UN General Assembly resolution 217A 
(III) of 10 December 48, arts. 19, 29. The UN Special Rapporteur on the 
Promotion and Protection of the Right to Freedom of Opinion and 
Expression has also used this three-factor test to describe the 
standard for determining when a restriction is permissible under 
Article 19, paragraph 3, of the ICCPR. UN Human Rights Council, Report 
of the Special Rapporteur on the Promotion and Protection of the Right 
to Freedom of Opinion and Expression, Frank La Rue, 16 May 11, A/HRC/
17/27, para. 24.
    \2\ UN GAOR, Hum. Rts. Coun., 12th Sess., Promotion and Protection 
of All Human Rights, Civil, Political, Economic, Social and Cultural 
Rights, Including the Right to Development, adopted by Human Rights 
Council resolution 12/16, A/HRC/RES/12/16, 12 October 09, para. 
5(p)(i).
    \3\ In its May 2011 report, the Special Rapporteur on the Promotion 
and Protection of the Right to Freedom of Opinion and Expression stated 
that ``any legislation restricting the right to freedom of expression 
must be applied by a body which is independent of any political, 
commercial, or other unwarranted influences in a manner that is neither 
arbitrary nor discriminatory, and with adequate safeguards against 
abuse, including the possibility of challenge and remedy against its 
abusive application.'' UN Human Rights Council, Report of the Special 
Rapporteur on the Promotion and Protection of the Right to Freedom of 
Opinion and Expression, Frank La Rue, 16 May 11, A/HRC/17/27, para. 24.
    \4\ Wu Yu, `` `Jasmine Revolution' Circulates Online, Chinese 
Authorities Take Precautions on All Fronts'' [Wangchuan ``molihua 
geming,'' zhongguo dangju quanxian jiebei], Deutsche Welle, 19 February 
11.&
    \5\ ``China's `Jasmine Revolution,' Assembly Sites in Each Major 
City'' [Zhongguo ``molihua geming'' geda chengshi jihui didian], Boxun, 
19 February 11; Wu Yu, `` `Jasmine Revolution' Circulates Online, 
Chinese Authorities Take Precautions on All Fronts'' [Wangchuan 
``molihua geming,'' zhongguo dangju quanxian jiebei], Deutsche Welle, 
19 February 11; Human Rights in China, ``Jasmine Organizers Call for 
Rallies Every Sunday,'' 22 February 11.
    \6\ ``Latest Directives From the Ministry of Truth, January 2-28, 
2011,'' China Digital Times, 8 February 11; ``Latest Directives From 
the Ministry of Truth, February 17-24, 2011,'' China Digital Times, 23 
February 11. For CECC analysis, see ``Authorities Censor Access to 
Information on Middle East and Chinese `Jasmine' Protests,'' 
Congressional-Executive Commission on China, 22 March 11.
    \7\ Jeremy Page, ``Beijing Blocks Protest Reports,'' Wall Street 
Journal, 31 January 11; Edward Wong and David Barboza, ``Wary of Egypt 
Unrest, China Censors Web,'' New York Times, 31 January 11. See, e.g., 
``Color Revolutions Will Not Bring About Real Democracy,'' Global 
Times, 30 January 11.
    \8\ Michael Kan, ``China Microblogs Block Chinese Word for `Egypt,' 
'' IDG News, reprinted in PCWorld, 29 January 11; Jeremy Page, ``China 
Co-Opts Social Media To Head Off Unrest,'' Wall Street Journal, 22 
February 11. For CECC analysis, see ``Authorities Censor Access to 
Information on Middle East and Chinese `Jasmine' Protests,'' 
Congressional-Executive Commission on China, 22 March 11.
    \9\ Chinese Human Rights Defenders, ``Escalating Crackdown 
Following Call for `Jasmine Revolution' in China,'' 31 March 11. For 
CECC analysis, see ``Authorities Crack Down on Rights Defenders, 
Lawyers, Artists, Bloggers,'' Congressional-Executive Commission on 
China, 3 May 11.
    \10\ Ibid.
    \11\ UN Office of the High Commissioner for Human Rights, ``China: 
UN Expert Body Concerned About Recent Wave of Enforced 
Disappearances,'' 8 April 11; Human Rights Watch, ``China: Arrests, 
Disappearances Require International Response,'' 31 March 11; Amnesty 
International, ``China: New Generation of Internet Activists 
Targeted,'' 23 March 11.
    \12\ Barbara Demick, ``China Has Many `Dirty Words,' '' Los Angeles 
Times, 21 April 10; Loretta Chao and Jason Dean, ``China's Censors 
Thrive in Obscurity,'' Wall Street Journal, 31 March 10. Zhang Lei, 
``Publish and Be Deleted,'' Global Times, 25 February 10.
    \13\ Andrew Jacobs, ``China, Angered by Peace Prize, Blocks 
Celebration,'' New York Times, 9 October 10; ``PRC Blocks Web, Text 
Message Reports of Peace Prize for Liu Xiaobo,'' Agence France-Presse, 
8 October 10; Pascale Trouillaud, ``China Wages Propaganda War After 
Nobel,'' Agence France-Presse, reprinted in Google, 11 October 10.
    \14\ ``New Controls on Text Messages,'' Radio Free Asia, 6 January 
11.
    \15\ ``China, Tibet: The End of TibetCul.com? '' Global Voices, 19 
March 11; ``Graft-Busting Site Blocked,'' Radio Free Asia, 11 January 
11; ``China Closes AIDS Website,'' Radio Free Asia, 16 March 11.
    \16\ Sky Canaves, ``What Are You Allowed To Say on China's Social 
Networks? '' IEEE Spectrum, June 2011.
    \17\ Reporters Without Borders, ``Internet Is Collateral Victim of 
Crackdown on Inner Mongolia Protests,'' 31 May 11. For CECC analysis, 
see ``Mongols Protest in Inner Mongolia After Clashes Over Grasslands 
Use, Mining Operations,'' Congressional-Executive Commission on China, 
1 July 11.
    \18\ Chinese Human Rights Defenders, ``News Flash: Rights Defender 
Wang Yi About To Be Sent to Reeducation Through Labor'' [Kuai xun: 
weiquan renshi wang yi zheng yao bei song qu laojiao], reprinted in 
Boxun, 15 November 10; Amnesty International, ``Chinese Woman Sentenced 
to a Year in Labour Camp Over Tweet,'' 17 November 10. For CECC 
analysis, see ``Henan Authorities Order One-Year Reeducation Through 
Labor Sentence for Activist's Satirical Tweet,'' CECC China Human 
Rights and Rule of Law Update, No. 9, 10 December 10, 3.
    \19\ Ibid.
    \20\ ``Netizen `Re-educated' for Online Rant,'' Radio Free Asia, 6 
June 11.
    \21\ Didi Kirsten Tatlow, ``Caught in an `Authoritarian Moment,' '' 
New York Times, 25 November 10.
    \22\ Chinese Human Rights Defenders, ``A Quiet Crackdown, Yet 
Likely the Harshest in Recent Years,'' 25 February 11.
    \23\ ``Guangzhou Lawyer Liu Zhengqing Arrested and House Searched, 
Zheng Chuangtian Seeks Defense and Hua Chunhui Receives Reeducation 
Through Labor'' [Guangzhou lushi liu zhengqing beibu chaojia, zheng 
chuangtian qubao hua chunhui chuan laojiao], Radio Free Asia, 1 April 
11.
    \24\ Chinese Human Rights Defenders, ``A Quiet Crackdown, Yet 
Likely the Harshest in Recent Years,'' 25 February 11.
    \25\ Measures for the Administration of Internet Information 
Services [Hulianwang xinxi fuwu guanli banfa], issued 20 September 00, 
effective 25 September 00, art. 15.
    \26\ See, e.g., a November 2010 China Daily article that notes the 
concerns of one Chinese professor, who said there is a need for 
specific laws to determine when citizens have ``spread rumors.'' Li 
Xinzhu, ``Latest Batch of Rogue Netizens Exposed,'' China Daily, 3 
November 10.
    \27\ Measures for the Administration of Internet Information 
Services [Hulianwang xinxi fuwu guanli banfa], issued 20 September 00, 
effective 25 September 00, arts. 15-16; Provisions on the 
Administration of Internet News Information Services [Hulianwang xinwen 
xinxi fuwu guanli guiding], issued 25 September 05, effective 25 
September 05, arts. 19-21.
    \28\ Lana Lam, ``Social Media Finding Ways Around Censors,'' South 
China Morning Post, 13 February 11.
    \29\ Zhang Duo, et al., ``Online Media Visit `First Congress' 
Meeting Site in Nanhu, Li Yanhong Speaks on Behalf of Members'' 
[Wangluo meiti tanfang ``yi da'' huizhi nanhu li yanhong daibiao 
chengyuan fayan], Xinhua, 8 June 11.
    \30\ Melanie Lee, ``Sina To Launch English Microblog by Year-End,'' 
Reuters, 7 June 11.
    \31\ Loretta Chao, ``Google Objects to China's Acts,'' Wall Street 
Journal, 22 March 11.
    \32\ Chris Buckley, ``Ministry Spokeswoman Says Accusations 
`Unacceptable,' '' Reuters, 22 March 11.
    \33\ ``Ensuring Your Information Is Safe Online,'' The Official 
Google Blog, 1 June 11.
    \34\ Michael Wines, ``China Rejects Google's Hacking Charge,'' New 
York Times, 6 June 11.
    \35\ Measures for the Administration of Internet Information 
Services [Hulianwang xinxi fuwu guanli banfa], issued 20 September 00, 
effective 25 September 00, art. 4; Registration Administration Measures 
for Non-Commercial Internet Information Services [Fei jingyingxing 
hulianwang xinxi fuwu bei'an guanli banfa], issued 28 January 05, 
effective 20 March 05, art. 5; Provisions on the Administration of 
Internet News Information Services [Hulianwang xinwen xinxi fuwu guanli 
guiding], issued 25 September 05, effective 25 September 05, arts. 5, 
11, 12; Provisions on the Administration of Internet Video and Audio 
Programming Services [Hulianwang shiting jiemu fuwu guanli guiding], 
issued 20 December 07, effective 31 January 08, art. 7.
    \36\ The Special Rapporteur also noted that such licensing schemes 
should be distinguished from ``registration with a domain name 
authority for purely technical reasons or rules of general application 
which apply without distinction to any kind of commercial operation.'' 
UN Human Rights Council, Report of the Special Rapporteur on the 
Promotion and Protection of the Right to Freedom of Opinion and 
Expression, Frank La Rue, 16 May 11, A/HRC/17/27, para. 28. In China, 
because the registration system gives the government discretion to 
reject an application based on content (i.e., whether the Web site 
operator intends to post ``news,'' and if so, whether it is authorized 
to do so), it is qualitatively different from registration which all 
Web site operators must undertake with a domain registrar, and 
constitutes a de facto licensing scheme. Measures for the 
Administration of Internet Information Services [Hulianwang xinxi fuwu 
guanli banfa], issued 20 September 00, effective 25 September 00, art. 
4; Registration Administration Measures for Non-Commercial Internet 
Information Services [Fei jingyingxing hulianwang xinxi fuwu bei'an 
guanli banfa], issued 28 January 05, effective 20 March 05, art. 5.
    \37\ ``Nationwide 3000 Web Sites Closed for Failing To Register, 
636,000 Domain Names No Longer Resolving'' [Quanguo guanbi 3000 ge wei 
bei'an wangzhan, tingzhi jiexi 63.6 wan yuming], Sina, 28 October 10.
    \38\ Yin Yungong and Liu Ruisheng, ``The Indigenization and 
Socialization of China's New Media--Characteristics, Dissemination 
Influence, and Hot Topic Analysis in the Development of New Media in 
China in 2010'' [Zhongguo xin meiti de bentuhua yu shehuihua--2010 nian 
zhongguo xin meiti fazhan tezheng, chuanbo yingxiang yu redian jiexi], 
taken from the Chinese New Media Development Report (2011) [Zhongguo 
xin meiti fazhan baogao (2011)], Chinese Academy of Social Sciences, 
Media and Communications Research Web, 12 July 11.
    \39\ Priscilla Jiao, ``41pc of Mainland Websites Close in Just One 
Year,'' South China Morning Post, 13 July 11.
    \40\ Ibid.
    \41\ Yin Yungong and Liu Ruisheng, ``The Indigenization and 
Socialization of China's New Media--Characteristics, Dissemination 
Influence, and Hot Topic Analysis in the Development of New Media in 
China in 2010'' [Zhongguo xin meiti de bentuhua yu shehuihua--2010 nian 
zhongguo xin meiti fazhan tezheng, chuanbo yingxiang yu redian jiexi], 
taken from the Chinese New Media Development Report (2011) [Zhongguo 
xin meiti fazhan baogao (2011)], Chinese Academy of Social Sciences, 
Media and Communications Research Web, 12 July 11.
    \42\ State Council Information Office, ``White Paper on the State 
of the Internet in China'' [Zhongguo hulianwang zhuangkuang bai pi 
shu], 8 June 10, sec. I.
    \43\ China Internet Network Information Center, ``27th Statistical 
Report on Internet Development in China'' [Di 27 ci zhongguo 
hulianwangluo fazhan zhuangkuang diaocha tongji baogao], 19 January 11, 
12, 21; Ministry of Industry and Information Technology, ``Ministry of 
Industry and Information Technology Announces April 2011 
Telecommunications Industry Operating Situation'' [Gongye he xinxihua 
bu fabu 2011 nian 4 yue tongxinye yunxing zhuangkuang], 24 May 11.
    \44\ ``Wang Chen: Chinese Government Attaches Great Importance to 
and Actively Promotes the Development and Utilization of the Internet'' 
[Wang chen: zhongguo zhengfu gaodu zhongshi bing jiji cujin hulianwang 
fazhan yu yunyong], China.com, 30 December 10; ``Hu Jintao: Firmly 
Raise the Standard for Scientization of Social Management'' [Hu jintao: 
zhazhashishi tigao shehui guanli kexuehua shuiping], Xinhua, 19 
February 11.
    \45\ Guobin Yang, ``China's Gradual Revolution,'' New York Times, 
13 March 11; Keith B. Richburg, ``In China, Microblogging Sites Become 
Free-Speech Platform,'' Washington Post, 27 March 11; Michael Wines, 
``China's Censors Misfire in Abuse-of-Power Case,'' New York Times, 17 
November 10. One U.S.-based Chinese Internet expert tallied 60 major 
cases of online activism in 2009 and 2010, but noted that the protests 
were primarily local and directed at corrupt officials and specific 
instances of injustice and that government controls had prevented more 
``broad-based coalitions.'' Guobin Yang, ``China's Gradual 
Revolution,'' New York Times, 13 March 11.
    \46\ Michael Wines and Sharon LaFraniere, ``In Baring Facts of 
Train Crash, Blogs Erode China Censorship,'' New York Times, 28 July 
11.
    \47\ Ibid.
    \48\ ``State Internet Information Office Established'' [Guojia 
hulianwang xinxi bangongshi sheli], Xinhua, reprinted in State Council 
Information Office, 4 May 11.
    \49\ In an April 2011 Chinese news article, an official with the 
Beijing City Internet Propaganda Supervision Office noted that the 
``basic principle of the Communist Party managing the media'' had been 
legally enshrined in major Internet regulations and that the government 
body in charge of managing the media, the State Council Information 
Office, and the Central Party External Propaganda Office were simply 
``the same office under different names.'' Chen Hua, ``Looking Back on 
Ten Years of Internet News Publishing Work and the Avenues of 
Management by Law'' [Hulianwang zhan dengzai xinwen yewu shinian huigu 
yu fazhi guanli lujing], Qianlong Net, 29 April 11.
    \50\ ``Hu Jintao: Firmly Raise the Standard for Scientization of 
Social Management'' [Hu jintao: zhazhashishi tigao shehui guanli 
kexuehua shuiping], Xinhua, 19 February 11.
    \51\ Pascale Trouillaud, ``China's Web Spin Doctors Spread 
Beijing's Message,'' Sydney Morning Herald, 12 May 11.
    \52\ ``Zhou Yongkang: Adapt to New Economic and Social Development 
Conditions, Strengthen and Create Innovations in Social Management'' 
[Zhou yongkang: shiying jingji shehui fazhan xin xingshi, jiaqiang he 
chuangxin shehui guanli], Xinhua, 20 February 11.
    \53\ Andrew Jacobs, ``As China Steps Up Web Monitoring, Many Wi-Fi 
Users Stay Away,'' New York Times, 25 July 11; Xu Tianran, ``Is Wi-Fi 
Software Illegal? '' Global Times, 29 July 11.
    \54\ Dui Hua Foundation, ``Official Data Show State Security 
Arrests, Prosecutions Remained at Historic Levels in 2010,'' 15 March 
11. Article 105 provides for sentences of up to life imprisonment for 
attempts to subvert state power or up to 15 years for inciting such 
subversion. PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 105.
    \55\ Chinese Human Rights Defenders, ``Individuals Affected by the 
Crackdown Following Call for `Jasmine Revolution,' '' updated 30 May 
11.
    \56\ Ibid.
    \57\ Andrew Jacobs, ``China Releases Dissident Blogger, With 
Conditions,'' New York Times, 10 August 11.
    \58\ Chinese Human Rights Defenders, ``Escalating Crackdown 
Following Call for `Jasmine Revolution' in China,'' 31 March 11.
    \59\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 293.
    \60\ Chinese Human Rights Defenders, ``Individuals Affected by the 
Crackdown Following Call for `Jasmine Revolution,' '' updated 30 May 
11.
    \61\ ``Chinese Activist on Trial Amid Crackdowns,'' Associated 
Press, reprinted in Time, 11 August 11.
    \62\ Tania Branigan, ``Chinese Internet Activist Wang Lihong Goes 
on Trial,'' Guardian, 12 August 11.
    \63\ Human Rights in China, ``Lawyers Report Procedural 
Irregularities at Trial of Rights Activist Wang Lihong,'' 13 August 11.
    \64\ Human Rights in China, ``Rights Defender Wang Lihong Sentenced 
to Nine Months,'' 9 September 11.
    \65\ ``Ai Weiwei's Company Evades `Huge Amount' of Tax: Police,'' 
Xinhua, 20 May 11.
    \66\ Andrew Jacobs, ``China Takes Dissident Artist Into Custody,'' 
New York Times, 3 April 11.
    \67\ ``Wife of Detained Chinese Artist Finds Him Tense During 
Visit; No Word on Why He Was Seized,'' Associated Press, 15 May 11.
    \68\ Jeremy Page, ``Ai Weiwei Resumes His Defiance of Beijing,'' 
Wall Street Journal, 12 August 11.
    \69\ Ibid.
    \70\ Ibid.
    \71\ Chinese Human Rights Defenders, ``Individuals Affected by the 
Crackdown Following Call for `Jasmine Revolution,' '' updated 30 May 
11.
    \72\ Following its 2005 visit to China, the UN Working Group on 
Arbitrary Detention noted that the vague definition of crimes of 
endangering national security, splitting the state, subverting state 
power, and supplying state secrets ``leaves their application open to 
abuse particularly of the rights to freedom of religion, speech, and 
assembly.'' It recommended that political crimes ``that leave large 
discretion to law enforcement and prosecution authorities such as 
`endangering national security,' `subverting State power,' `undermining 
the unity of the country,' `supplying of State secrets to individuals 
abroad,' etc. should be abolished.'' Manfred Nowak, Report of the 
Special Rapporteur on Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, Mission to China, 10 March 06, paras. 34, 
82(s). In a January 2008 report, Chinese Human Rights Defenders studied 
41 cases from 2000 to 2007 in which officials used the ``inciting 
subversion'' provision of the PRC Criminal Law (Article 105(2)) to 
punish Chinese citizens for exercising their right to freedom of 
expression. It found that in such cases ``[t]he `evidence' often 
consists of no more than the writings of an individual or simply shows 
that he/she circulated certain articles containing dissenting views, 
without any effort to show that the expression had any potential or 
real subversive effect. That is to say, speech in and of itself is 
interpreted as constituting incitement of subversion. . . .'' Chinese 
Human Rights Defenders, ``Inciting Subversion of State Power: A Legal 
Tool for Prosecuting Free Speech in China,'' 8 January 08. See, e.g., a 
Beijing court's December 2009 decision in the Liu Xiaobo case in which 
the court provided no evidence that Liu advocated violence in his 
works. Human Rights in China, ``Case Update: International Community 
Speaks Out on Liu Xiaobo Verdict,'' 30 December 09. For CECC analysis, 
see ``Liu Xiaobo Appeals Sentence; Official Abuses Mar Case From 
Outset,'' CECC China Human Rights and Rule of Law Update, No. 2, 5 
February 10, 2.
    \73\ Chinese Human Rights Defenders, ``Wuhan Rights Defender Li Tie 
Arrested on Suspicion of `Subverting State Power' Crime'' [Wuhan 
weiquan renshi litie bei yi shexian ``dianfu guojia zhengquan zui'' 
daibu], 17 November 10.
    \74\ ``Chinese Activist Held Over Tiananmen Picture,'' Associated 
Press, reprinted in Guardian, 30 November 10.
    \75\ International Campaign for Tibet, ``Three More Tibetan Writers 
Sentenced to Prison,'' 21 January 11; ``Tibetan Writers Sentenced,'' 
Radio Free Asia, 31 December 10; International Campaign for Tibet, 
``Three Tibetan Writers on Trial Await Verdict,'' 5 November 10; 
``Tibetan Writers Tried as `Splittists,' '' Radio Free Asia, 5 November 
10.
    \76\ Human Rights in China, ``Activist Sentenced to Ten Years for 
Inciting Subversion; Essays Cited as Evidence,'' 25 March 11.
    \77\ ``So-Called `Punishment Because of Speech' Is a Misreading of 
the Judgment in the Liu Xiaobo Case'' [Suowei ``yinyan huozui'' shi dui 
liu xiaobo an panjue de wudu], Xinhua, 25 October 10. For CECC 
analysis, see ``Xinhua Article Claims Liu Xiaobo Case Meets 
International Standards,'' CECC China Human Rights and Rule of Law 
Update, No. 9, 10 December 10, 1-2.
    \78\ Ibid.
    \79\ Ibid.
    \80\ UN Working Group on Arbitrary Detention, Opinion No. 15/2011 
(People's Republic of China), 5 May 11, reprinted in Freedom Now, 1 
August 11. For CECC analysis, see ``UN Group Calls for Immediate 
Release of Liu Xiaobo and Wife Liu Xia,'' Congressional-Executive 
Commission on China, 12 August 11.
    \81\ Reporters Without Borders, ``Debate on Internet Censorship 
Censored,'' 30 November 10; ``Guizhou Poet `Still Missing,' '' Radio 
Free Asia, 16 December 10.
    \82\ ChinaAid, ``Urgent! Chen and Wife Beaten Severely, Chinese 
Citizens Appeal to America,'' 10 February 11; China Human Rights 
Lawyers Concern Group, ``Vehemently Condemn Beating and Taking Into 
Custody Rights Defense Lawyer'' [Qianglie qianze ouda ji jujin weiquan 
lushi], 21 February 11. For CECC analysis, see ``Chen Guangcheng, Wife 
Reportedly Beaten After Release of Video Detailing Official Abuse,'' 
Congressional-Executive Commission on China, 11 March 11.
    \83\ Ibid.
    \84\ PEN American Center, ``PEN Sounds Alarm Over Treatment of 
Jailed Nobel Laureate's Wife in China,'' 22 February 11.
    \85\ UN Working Group on Arbitrary Detention, Opinion No. 15/2011 
(People's Republic of China), 5 May 11, reprinted in Freedom Now, 1 
August 11. For CECC analysis, see ``UN Group Calls for Immediate 
Release of Liu Xiaobo and Wife Liu Xia,'' Congressional-Executive 
Commission on China, 12 August 11.
    \86\ Chinese Human Rights Defenders, ``Qin Yongmin, Recently 
Released From Prison, Suffers High Blood Pressure After Being Abused by 
Police During Visit'' [Gang chuyu de qin yongmin yin jingcha shangmen 
manma, zhi xueya dou sheng chuxian yanzhong bushi], 1 December 10.
    \87\ Philip Gourevitch, ``Liao Yiwu: Grounded in China,'' New 
Yorker, 30 March 11; ``China Bans Writer From Traveling Abroad,'' 
Associated Press, 9 May 11. Earlier, officials had allowed Liao to 
attend a literary festival in Germany in September 2010.
    \88\ Didi Kirsten Tatlow, ``Chinese Artists Drawn to Berlin, a 
Haven That Reveres History,'' New York Times, 10 August 11.
    \89\ Human Rights in China, ``Three Documents Related to the Case 
of Buddhist Leader Wu Zeheng,'' 22 September 11.
    \90\ Ibid.
    \91\ UN Human Rights Council, ``Tenth Anniversary Joint 
Declaration: Ten Key Challenges to Freedom of Expression in the Next 
Decade,'' Addendum to Report of the Special Rapporteur on the Promotion 
and Protection of the Rights to Freedom of Opinion and Expression, 
Frank La Rue, 25 March 10, A/HRC/14/23/Add.2, art. 1(a).
    \92\ ``Liu Binjie: Political System Reform Must Insist on the 
Correct Orientation'' [Liu binjie: zhengzhi tizhi gaige bixu jianchi 
zhengque fangxiang], China Press and Publications Daily, 17 November 
10.
    \93\ ``SARFT Spokesperson: Radio and Televisions Not Allowed To 
Entirely Go on Market'' [Guangdian zongju xinwen fayan ren: diantai 
dianshitai buxu zhengti shangshi], China News Net, 14 January 11.
    \94\ Zhao Qiang, ``Loss of Control Over Public Opinion: Catalyst 
for Disintegration of Soviet Union'' [Yulun shikong: sulian jieti de 
cuihuaji], Seeking Truth, 1 November 10.
    \95\ ``Local Newspapers Prohibited From Swapping Reports, Freedom 
of Speech in the Mainland Again Put Under Pressure'' [Difang baozhang 
jin huhuan gaojian neidi yanlunziyou zai yu ya], Ming Pao, 15 July 10; 
Reporters Without Borders, ``New Regulations Pose Threat to Liberal 
Press,'' 21 July 10. For CECC analysis, see ``Communist Party Seeks To 
Restrict Already Limited Critical Media Reports,'' CECC China Human 
Rights and Rule of Law Update, No. 8, 9 November 10, 4.
    \96\ ``Does China's General Administration on Press and Publication 
Safeguard or Restrict Freedom of the Press? '' [Zhongguo xinwen chuban 
shu weihu hai shi xianzhi xinwen ziyou?], Radio Free Asia, 6 November 
10.
    \97\ Katherine Hille, ``Anger Over Attacks on Journalists in 
China,'' Financial Times, 8 August 10.
    \98\ Ibid.
    \99\ Sharon LaFraniere, ``Media Blackout in China After Wreck,'' 
New York Times, 31 July 11.
    \100\ Ibid.
    \101\ Ibid.
    \102\ ``Remarks at 11th China Journalists' Day and Presentation of 
Awards and Report Meeting'' [Zai di shiyi jie zhongguo jizhe jie ji 
banjiang baogao hui shang de jianghua], People's Daily, 8 November 10.
    \103\ Ibid.
    \104\ ``Liu Yunshan Presides Over Convening of Meeting on Topic of 
Starting Propaganda Reporting Work for 90th Anniversary of the Party's 
Founding'' [Liu yunshan zhuchi zhaokai jiandang 90 zhounian xuanchuan 
baodao gongzuo zhuanti huiyi], Xinhua, 22 April 11. For CECC analysis, 
see ``Top Official Directs Media To Promote July Anniversary of Party's 
Founding,'' Congressional-Executive Commission on China, 1 July 11.
    \105\ Ibid.
    \106\ Damian Grammaticas, ``Chinese Regulators Suspend TV Crime and 
Spy Dramas,'' BBC, 6 May 11.
    \107\ Keith Richburg, ``Chinese Editors, and a Web Site, Detail 
Censors' Hidden Hand,'' Washington Post, 1 April 11.
    \108\ International Federation of Journalists, ``New IFJ Report 
Outlines Restrictions on Journalists in China in 2010,'' 30 January 11.
    \109\ Ibid.
    \110\ Pascale Trouillaud, ``China Wages Propaganda War After 
Nobel,'' Agence France-Presse, reprinted in Google, 11 October 10.
    \111\ Ibid.
    \112\ Wu Yu, ``Chinese Authorities Issue Media Restriction, Banning 
`Civil Society' '' [Zhongguo danggju xiada meiti jinling, pingbi 
``gongmin shehui''], Deutsche Welle, 6 January 11.
    \113\ Priscilla Jiao, ``Officials Put an End to Reporting Awards,'' 
South China Morning Post, 28 December 10.
    \114\ David Barboza, ``Chinese Journalist Who Defied the Censors 
and Wrote About Corruption Is Fired,'' New York Times, 27 January 11.
    \115\ `` `Time Weekly' Selection Crisis, Commentary Department Head 
`Forced To Resign' '' [``Shidai zhoubao'' pingxuan fengbo, pinglunbu 
zhuren ``bei cizhi''], Radio Free Asia, 10 January 11.
    \116\ Ibid.
    \117\ Ibid.
    \118\ Committee to Protect Journalists, ``Mainstream Journalists 
Also Targeted in China Crackdown,'' 30 March 11.
    \119\ Priscilla Jiao, ``High Price for Airing Sun Yat-sen 
Criticism,'' South China Morning Post, 19 August 11.
    \120\  International Federation of Journalists, ``IFJ Demands 
Reinstatement of Journalist Suspended Over China Disaster Reports,'' 2 
August 11.
    \121\ Provisions on the Administration of Internet News Information 
Services [Hulianwang xinwen xinxi fuwu guanli guiding], issued 25 
September 05, effective 25 September 05, arts. 7, 8, 11; Regulations on 
the Administration of Publishing [Chuban guanli tiaoli], issued 25 
December 01, effective 1 February 02, art. 15; Measures for 
Administration of News Reporter Cards [Xinwen jizhe zheng guanli 
banfa], issued 24 August 09, effective 15 October 09, arts. 11, 12, 16.
    \122\ Zhejiang Province Radio, Film and Television Bureau, ``2010 
Nationwide Radio and Television Editors and Reporters, Broadcasters, 
and Hosts Qualification Exam'' [2010 nian quanguo guangbo dianshi 
bianji jizhe, boyin yuan zhuchi ren zige kaoshi dagang], 30 July 10, 
chap. 2, art. 6.
    \123\ CECC, 2010 Annual Report, 10 October 10, 68.
    \124\ ``Stop False Reporting, Strengthen Social Responsibility, 
Strengthen Construction of News Professional Ethics'' [Dujue xujia 
baodao, zengqiang shehui zeren, jiaqiang xinwen zhiye daode jianshe], 
Xinhua, 24 November 10.
    \125\ Ibid.
    \126\ ``14 News Units Conscientiously Launch Self-Education and 
Self-Examination, Self-Rectification'' [Shisi jia xinwen danwei renzhen 
kaizhan ziwo jiaoyu he zicha zijiu], Xinhua, 13 April 11.
    \127\ ``Individual journalists should not be required to be 
licensed or to register. There should be no legal restrictions on who 
may practice journalism.'' UN Special Rapporteur on Freedom of Opinion 
and Expression, the Organization for Security and Cooperation in Europe 
Representative on Freedom of the Media, and the Organization of 
American States Special Rapporteur on Freedom of Expression, 
``International Experts Condemn Curbs on Freedom of Expression and 
Control Over Media and Journalists,'' UN Press Release, 18 December 03.
    \128\ UN Human Rights Council, ``Tenth Anniversary Joint 
Declaration: Ten Key Challenges to Freedom of Expression in the Next 
Decade,'' Addendum to Report of the Special Rapporteur on the Promotion 
and Protection of the Rights to Freedom of Opinion and Expression, 
Frank La Rue, 25 March 10, A/HRC/14/23/Add.2, arts. 1(b), 1(g).
    \129\ ``GAPP's Special Campaign Against Newspaper and Magazine 
Journalist Stations'' [Xinwen chuban zongshu jiang dui baokan jizhe 
zhan kaizhan zhuanxiang zhili], Xinhua, 24 March 11.
    \130\ Foreign Correspondents' Club of China, ``Warning: Reporting 
on Chen Guangcheng,'' 17 February 11. For CECC analysis, see ``Chen 
Guangcheng, Wife Reportedly Beaten After Release of Video Detailing 
Official Abuse,'' Congressional-Executive Commission on China, 11 March 
11.
    \131\ Ibid.
    \132\ Foreign Correspondents' Club of China, ``New Details on 
Wangfujing Interference,'' 28 February 11. For CECC analysis, see 
``Authorities Reportedly Beat, Detain, and Threaten Foreign Journalists 
Covering `Jasmine Revolution,' '' Congressional-Executive Commission on 
China, 22 March 11.
    \133\ Foreign Correspondents' Club of China, ``New Details on 
Wangfujing Interference,'' 28 February 11; ``Bloomberg Journalist 
Assaulted as China Heightens Security,'' Bloomberg, 27 February 11. For 
CECC analysis, see ``Authorities Reportedly Beat, Detain, and Threaten 
Foreign Journalists Covering `Jasmine Revolution,' '' Congressional-
Executive Commission on China, 22 March 11.
    \134\ ``Foreign Minister to Foreign Press: Don't Believe Your Lying 
Eyes,'' Wall Street Journal, 8 March 11; Ministry of Foreign Affairs, 
``Foreign Ministry Spokesperson Jiang Yu's Regular Press Conference on 
March 3, 2011,'' 5 March 11. The Commission and others reported on the 
existence of local regulations issued in late 2010 and early 2011 that 
require official approval to report in the Wangfujing area and near the 
designated Shanghai protest site. For CECC analysis, see ``Authorities 
Reportedly Beat, Detain, and Threaten Foreign Journalists Covering 
`Jasmine Revolution,' '' Congressional-Executive Commission on China, 
22 March 11. But national regulations put in place for the 2008 Beijing 
Olympics provide that foreign journalists may interview any individual 
or organization so long as they obtain their consent. At the time, 
officials touted the regulations as providing foreign journalists 
freedom to report on every aspect of Chinese society, from political 
matters to social issues. Regulations of the People's Republic of China 
on News Covering Activities of the Permanent Offices of Foreign News 
Agencies and Foreign Journalists [Zhonghua renmin gongheguo waiguo 
changzhu xinwen jigou he waiguo jizhe caifang tiaoli], issued 17 
October 08, art. 17; Ministry of Foreign Affairs, ``Foreign Ministry 
News Department Head Liu Jianchao Hosts Sino-Foreign Journalists Press 
Conference on State Council's Promulgation of the `Regulations of the 
People's Republic of China on News Covering Activities of the Permanent 
Offices of Foreign News Agencies and Foreign Journalists' '' [Waijiaobu 
xinwen si sizhang liu jianchao jiu guowuyuan banbu shishi ``zhonghua 
renmin gongheguo waiguo changzhu xinwen jigou he waiguo jizhe caifang 
tiaoli'' juxing zhongwai jizhe hui], 17 October 08.
    \135\ Sharon LaFraniere and Edward Wong, ``Even With Protests 
Averted, China Turns to Intimidation of Foreign Journalists,'' New York 
Times, 6 March 11; Alexa Olesen, ``China Warns Foreign Media Not To 
Cover Protests,'' Associated Press, reprinted in Washington Post, 3 
March 11.
    \136\ Louisa Lim, ``China Cracks Down on Christians at Outdoor 
Service,'' National Public Radio, 11 April 11; Bill Schiller, ``Star 
Reporter Detained, Interrogated by Chinese Police for Taking Photo,'' 
Toronto Star, 11 April 11.
    \137\ Ben Blanchard and Chris Buckley, ``Foreign Media in China 
Face Worsening Conditions--Survey,'' Reuters, 19 May 11.
    \138\ Regulations on the Administration of Publishing [Chuban 
guanli tiaoli], issued 25 December 01, effective 1 February 02, amended 
19 March 11, arts. 6, 7, 61; Provisions on the Administration of 
Newspaper Publishing [Baozhi chuban guanli guiding], issued 30 
September 05, effective 1 December 05, arts. 2, 4; Provisions on the 
Administration of Periodical Publishing [Qikan chuban guanli guiding], 
issued 30 September 05, effective 1 December 05, arts. 2, 5.
    \139\ Regulations on the Administration of Publishing [Chuban 
guanli tiaoli], issued 25 December 01, effective 1 February 02, amended 
19 March 11, art. 11.
    \140\ Provisions on the Administration of Periodical Publishing 
[Qikan chuban guanli guiding], issued 30 September 05, effective 1 
December 05, art. 45 (written reports); Regulations on the 
Administration of Publishing [Chuban guanli tiaoli], issued 25 December 
01, effective 1 February 02, amended 19 March 11, art. 20 (advance 
approval for special topics).
    \141\ Regulations on the Administration of Publishing [Chuban 
guanli tiaoli], issued 25 December 01, effective 1 February 02, amended 
19 March 11, arts. 36, 53.
    \142\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 225.
    \143\ ``Procuratorate Decides Not To Arrest Author Xie Chaoping in 
Sanmenxia Dam Relocation Program `Book Case,' '' Congressional-
Executive Commission on China, 10 December 10.
    \144\ Ibid.
    \145\ ``Inner Mongolia Writer Unaga Secretly Detained for 
Publishing New Book'' [Neimeng zuojia wunaga ni chuban xinshu zao mimi 
daibu], Radio Free Asia, 19 January 11; ``Mongol Writer Unaga Secretly 
Arrested in Inner Mongolia'' [Mongghul yazghuchisi unaga ichki 
mongghulda mexpiy tutuldi], Radio Free Asia, 18 January 11; Southern 
Mongolian Human Rights Information Center, ``Southern Mongolian 
Dissident Writer, Author of `Forefront of Independence' Arrested and 
Detained,'' 23 January 11.
    \146\ UN Human Rights Council, ``Cases Examined by the Special 
Rapporteur (June 2009-July 2010),'' Report of the Special Rapporteur on 
the Rights of Indigenous People, James Anaya, 15 September 10, A/HRC/
15/37/Add.1.
    \147\ Ibid.
    \148\ Regulations on the Administration of Publishing [Chuban 
guanli tiaoli], issued 25 December 01, effective 1 February 02, amended 
19 March 11, art. 25.
    \149\ ``Strongly Rectify and Standardize Culture Market Order'' 
[Zhongquan zhengdun guifan wenhua shichang zhixu], Heilongjiang 
Information Net, 11 March 11.
    \150\ Ibid.
    \151\ ``Jiangxi Province `Sweep Away Pornography and Strike Down 
Illegal Publications' Publications Market Program Clean-Up Has 
Remarkable Results'' [Jiangxi sheng ``saohuang dafei'' chubanwu 
shichang zhuanxiang zhengzhi chengxiao xianzhu], People's Daily, 21 
April 11.
    \152\ Liu Xilin, ``Our City Has Destroyed More Than 60,000 Items of 
Rights--Violating, Pirated, and All Types of Illegal Publication'' [Wo 
shi jizhong xiaohui 6 wan yu jian qinquan daoban ji gelei feifa 
chubanwu], Guang'an City Radio and Television Station, 22 April 11.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
